Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




AIDS DRUG ASSISTANCE PROGRAM
COST CONTAINMENT STRATEGIES




                   JUNE GIBBS BROWN
                    Inspector General

                     SEPTEMBER 2000
                      OEI-05-99-00610
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region V prepared this report under the direction of William Moran, Regional Inspector
General and Natalie Coen, Deputy Regional Inspector General. Principal OEI staff included:




REGION                                                  HEADQUARTERS

Ann Maxwell, Project Leader                             Elise Stein, Director, Public Health and
Madeline Carpinelli, Program Analyst                                            Human Services Staff
Chip Schonenberger, Intern




        To obtain copies of this report, please call the Chicago Regional Office at 312-353-9867.
          Reports are also available on the World Wide Web at our home page address:

                                       http://www.hhs.gov/oei
                         EXECUTIVE                     SUMMARY

PURPOSE

          Compare the prices that State AIDS Drug Assistance Programs are paying for drugs to
          the Federal ceiling prices listed in the Federal Supply Schedule.

BACKGROUND

          The Ryan White Comprehensive AIDS Resource Emergency (CARE) Act requires that a
          portion of Title II State grants are allocated to establish AIDS Drug Assistance Programs
          (ADAPs). The ADAPs provide medications to low-income individuals living with
          HIV/AIDS who have limited or no coverage from private insurance or Medicaid. Overall,
          Federal contributions have risen dramatically from the original appropriation of $52
          million in fiscal year (FY) 1996 to $528 million in the FY 2000 budget.

          The ADAPs are facing fiscal challenges from increasing demand due to growing numbers
          of low-income people living with HIV and the increased cost of drug treatments due to a
          changing standard of care. The Public Health Service treatment guidelines recommend
          combination antiretroviral therapies that typically range between $10,000 and $12,000 a
          year per client. In this environment, cost containment has emerged as a key means to
          address the issue of client access.

          One of the principle methods ADAPs have to contain drug costs is the 340B Drug Pricing
          Program. This program provides drug price ceilings to ADAPs that purchase their drugs
          through a central purchaser as well as certain other federally funded entities. This
          program also provides a rebate option for ADAPs who do not have a central purchaser.

          The Drug Pricing Program was enacted by Section 602 of the Veterans Health Care Act
          of 1992. Section 603 of the same law mandated minimum drug discounts for four large
          Federal agencies, known as the Big 4. Section 603 prices, known as the Federal ceiling
          prices, are available to the specified agencies through the Federal Supply Schedule. The
          ceiling price calculations stipulated in Section 602 and 603 are not equivalent.

FINDINGS

ADAP ceiling prices are, on average, 16 percent higher than the Federal ceiling
prices
       The ceiling prices limiting drug expenditures for ADAPs are, on average, 16 percent
       higher than the Federal ceiling prices limiting drug costs for the Big 4. As a result,


ADAP Cost Containment Strategies                   1                           OEI-05-99-00610
          ADAPs will pay an average of 29 cents more per pill and 32 dollars more per bottle than
          the Big 4 agencies pay for the same drug.

ADAPs could have saved nearly $58 million in 1999 if allowed to purchase the 10
drugs at Federal ceiling prices

          Comparing the actual per drug expenditures of the ADAPs to what they would have paid
          if they had access to Federal ceiling prices results in $57.5 million in Federal savings for
          ADAPs in 1999. Considering expenditures from all sources of funding, ADAPs could
          have saved $72 million given access to Federal ceiling prices. The $57.5 million in Federal
          savings could have been used to purchase additional life-saving pharmaceuticals to meet
          the therapeutic needs of several thousand more individuals living with HIV/AIDS.

          When broken out by the type of Drug Pricing Program participation, direct purchase
          States (22 ADAPs) would save $14.4 million given access to Federal ceiling prices, and
          rebate States (22 ADAPs) would save $39 million. For the five States not participating in
          the Drug Pricing Program, the savings equal $4 million, bringing the total to $57.5 million
          in Federal savings.

RECOMMENDATIONS

The Health Resources and Services Administration (HRSA) should seek
legislation to change the 340B ceiling price calculation to the Federal ceiling
price calculation

          As indicated in our findings, making this calculation change would result in $57.5 million
          in annual Federal savings for ADAPs. Also, although it was not in the scope of our study
          to provide a precise estimate regarding the savings available to all 340B Drug Pricing
          Program eligible entities, a 16 percent reduction in the ceiling price for pharmaceuticals
          could save these entities $240 million in Federal funds.

          While this represents significant programmatic savings, 340B drug expenditures in total
          only represent one percent of the domestic pharmaceutical market. The Big 4 agencies,
          already covered under Section 603, represent just another one and a half percent of the
          market. Given the limited scope of the proposed changes, it seems likely that any
          pharmaceutical industry loss due to lower Federal prices to 340B eligible entities could be
          regained in additional sales volume. At the time this study was conducted, 11 ADAPs had
          waiting lists while the demand for combination therapies of two or three drugs continues
          to accelerate. A potential benefit for the manufacturers is a simplified, uniform Federal
          pricing system to track and report, with price-changing data submissions and
          recalculations required only once a year.




ADAP Cost Containment Strategies                    2                           OEI-05-99-00610
          Even though the Big 4 and ADAPs would access the same Federal ceiling prices for
          outpatient covered drugs, we recommend that the programs stay discrete. The prime
          vendor could negotiate contracts below the 603 ceiling prices for the 340B entities similar
          to the way the VA negotiates multi-year contracts for users of the Federal Supply
          Schedule.

To allow ADAPs to negotiate the lowest prices possible, HRSA should seek
legislation to exempt all sales to 340B covered entities from the calculation of
Non-Federal Average Manufacturers Price

          We recommend that HRSA seek to add exclusionary language to the statutes codifying
          the 340B Drug Pricing Program (42 USC 256B) stating that any price negotiated below
          the 340B statutory ceiling price would be excluded from the calculation of the
          non-Federal Average Manufacturer Price. Currently, sales at the 340B ceiling price are
          excluded from this calculation, but sales below the ceiling are considered commercial sales
          by the VA and are included. Defining sales below the ceiling prices as commercial sales
          lowers average commercial prices. This also lowers the Big 4, Federal ceiling prices since
          they are a percentage of average commercial prices. The linkage between these two
          pricing schedules creates a disincentive for manufacturers to offer below 340B ceiling
          prices since these have the potential to reduce Federal ceiling prices. The Prime Vendor
          cannot successfully negotiate prices lower than the 340B ceiling, currently, or lower than
          the Federal ceiling, potentially, until this is changed.

HRSA should continue to work with rebate and non-participating ADAPs to
devise ways to grant them access to up-front drug discounts

          Currently, ADAPs that utilize a multiple contract pharmacy model for the purchase and
          distribution of pharmaceuticals are not eligible to access the 340B Drug Pricing Program
          ceiling prices. The ADAPs using this model would also not be able to take advantage of
          any savings gained by obtaining Federal ceiling prices. In light of this, we recommend that
          HRSA continue to work with rebate and non-participating ADAPs to devise ways to grant
          them access to direct purchase pricing discounts.

AGENCY COMMENTS

          The HRSA concurred with the report’s findings and recommendations. They also offered
          suggestions for clarifying the report and making other technical changes. We appreciate
          their suggestions and, where appropriate, we changed the report to reflect their comments.
          The complete text of HRSA comments can be found in Appendix C. Further, staff from
          the office of the Assistant Secretary of Planning and Evaluation (ASPE) expressed
          concerns regarding our first recommendation.


ADAP Cost Containment Strategies                   3                            OEI-05-99-00610
          The concern raised by ASPE staff has to do with the larger policy implications of our first
          recommendation. In particular, they are concerned that allowing 340B entities to utilize
          the Section 603 Federal ceiling price might affect the ability of the VA and the Big 4 to
          maintain the low prices they currently obtain. We understand their concern about the
          negotiations. In fact, it was our concern with this very issue that lead us to recommend
          that 340B pricing be linked to the statutorily defined Federal ceiling price as opposed to
          the negotiated Federal Supply Schedule (FSS) contract prices the VA and the Big 4
          actually pay for drugs. The Federal ceiling price acts only as an upper ceiling to the FSS
          prices. In reality, the VA uses its considerable volume to negotiate prices below the
          Federal ceiling. Allowing 340B entities to utilize the same ceiling calculation as the VA
          and the Big 4 merely provides them with an equitable starting point. Discussions with the
          VA confirmed that this is a realistic recommendation in consideration of larger policy
          implications.




ADAP Cost Containment Strategies                    4                           OEI-05-99-00610
                         TABLE                  OF           CONTENTS



                                                                                                               PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS

      ADAP Ceiling Prices Higher Than Federal Ceiling Prices . . . . . . . . . . . . . . . . . . . . . . . 16


          Access to Federal Ceiling Prices Would Save ADAPs $57.5 Million . . . . . . . . . . . . . . . 17


          Direct Purchase ADAPs Save $14 Million; Rebate ADAPs Save $39 Million . . . . . . . 18


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29


APPENDICES

    A: Projected Savings if ADAPs Purchased Drugs at Federal Ceiling Prices . . . . . . . . 31


          B: Names and National Drug Codes of the 10 Drugs Reviewed . . . . . . . . . . . . . . . . . . 33


          C: Agency Comments: HRSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34


          D: Related Office of Inspector General Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . 39





 ADAP Cost Containment Strategies                                  5                                    OEI-05-99-00610
                                   INTRODUCTION



PURPOSE

         Compare the prices that State AIDS Drug Assistance Programs are paying for drugs to
         the Federal ceiling prices listed in the Federal Supply Schedule.

BACKGROUND

Ryan White CARE Act

         In 1990, Congress passed the Ryan White Comprehensive AIDS Resource Emergency
         (CARE) Act in response to the AIDS epidemic and its impact on individuals, families,
         communities, cities and States. The Ryan White programs provide health care and
         support services to persons with HIV/AIDS who would otherwise have no access to
         health care. The Health Resources and Services Administration (HRSA) directs Ryan
         White resources to various local entities through the Act’s four titles and Part F.

         Ryan White programs constitute slightly over $1.6 billion of the approximately $8.2 billion
         in Federal HIV/AIDS appropriations for fiscal year (FY) 2000. The CARE Act is the
         largest source of Federal funding specifically directed to provide primary care for persons
         living with HIV/AIDS. The Ryan White CARE Act was re-authorized in 1996 through
         September 30, 2000. It is currently being considered for its second re-authorization.

AIDS Drug Assistance Programs

         Under Title II of the CARE Act, Ryan White provides formula grants to States to improve
         the quality, availability and organization of health care services to persons with
         HIV/AIDS. Section 2616(a) requires allocation of a portion of those funds to establish
         AIDS Drug Assistance Programs (ADAPs). The ADAPs provide medications to low-
         income individuals living with HIV/AIDS who have limited or no coverage from private
         insurance or Medicaid. State ADAPs estimate that they served 64,460 clients in any given
         month of FY 1999 and approximately 108,600 clients in total.

         Federal support for ADAPs has grown significantly. In the FY 2000 budget, Congress
         earmarked $528 million for ADAP. This is an increase of 15 percent over the $461
         million for FY 1999. Overall, Federal contributions have risen dramatically from the
         original appropriation of $52 million in FY 1996. In 1992, the year the Veterans Health
         Care Act was passed to limit drug costs, only 47 States had adopted a pharmaceutical

ADAP Cost Containment Strategies                         6                             OEI-05-99-00610
         option. Prior to 1996, when the ADAP provision was created, grantees elected whether
         or not to have a pharmaceutical option. Pharmaceutical expenditures for the 47 States
         that chose the option totaled $32 million. In addition to the Congressionally allocated
         Title II base award, ADAPs often receive contributions from State general revenue funds
         and Ryan White Title I grants to Eligible Metropolitan Areas.

         Title II ADAPs operate within a Federal-State partnership which allows each State
         maximum flexibility to create a system that fits the needs of their HIV/AIDS population.
         State ADAPs decide on the administrative structure, the criteria for program eligibility, the
         drug formulary and the drug purchasing and distribution system. This has led to wide
         variations between States in the number of patients served, the particular drugs available
         and the prices paid for those drugs.

ADAP Cost Containment

         The ADAPs are facing fiscal challenges from: 1) increasing demand due to growing
         numbers of low-income people living with HIV and, 2) increasing costs of drug treatments
         due to a changing standard of care. The Public Health Service (PHS) guidelines
         recommend combination antiretroviral therapies that typically range between $10,000 and
         $12,000 a year per client. In this environment, cost containment has emerged as a key
         means to address the issue of client access.

         In 1997 appropriations language (H.R. 104-863 to accompany H.R. 3610), Congress
         stated that they expect “that all States receiving AIDS drug assistance funding will employ
         cost-savings strategies to maximize assistance to HIV patients.” The HRSA maintains
         similar expectations. The HRSA’s Notice of Grant Awards states:


                   If your organization purchases or reimburses for outpatient drugs,
                   an assessment must be made to determine whether the
                   organization’s drug acquisition practices meet Federal requirements
                   regarding cost-effectiveness and reasonableness (See 42 CFR Part
                   50, Subpart E, and OMB Circulars A-122 and A-87 regarding cost
                   principles). If your organization is eligible to be a covered entity
                   under Section 340B of the Public Health Service Act and the
                   assessment shows that participating in the 340B Drug Pricing
                   Program and its Prime Vendor Program is the most economical and
                   reasonable manner of purchasing or reimbursing for covered
                   outpatient drugs (as defined in section 340B), failure to participate
                   may result in a negative audit finding, cost disallowance or grant
                   funding offset.

         This concern with cost effective spending is part of a larger public debate on the cost of


ADAP Cost Containment Strategies                            7                              OEI-05-99-00610
         drug prices. Many elected officials are calling into question the appropriateness of current
         government acquisition and reimbursement prices. For example, according to the National
         Conference of State Legislatures, 23 States are considering legislation that strives to limit
         the cost of drugs purchased in their State. Seven of these legislative proposals take into
         consideration the drug prices on the Federal Supply Schedule (FSS) in establishing their
         price ceilings.

Drug Discounting Legislation

         In 1990, Congress identified a problem with increasing drug prices and enacted the
         Omnibus Budget Reconciliation Act (OBRA 1990). This law attempted to limit drug
         costs for the Medicaid program, establishing the Medicaid Drug Rebate Program. This
         program requires manufacturers to give Medicaid a rebate that is the greater of 15.1
         percent of the Average Manufacturer’s Price (AMP) or AMP minus the manufacturer’s
         “Best Price” (BMP) , whichever is lowest. The AMP is the average unit price paid by
         wholesalers to manufacturers. The BMP is the lowest price at which the manufacturer
         sells the drug to any purchaser.

         As originally enacted, the calculation of the BMP included sales to Federal health care
         programs. As a result, drug manufacturers were reluctant to sell drugs to Federal health
         care programs at the very advantageous prices they had in the past because it could
         increase the rebates they had to pay to Medicaid, which represents a significant portion of
         the US pharmaceutical market. For this reason, the implementation of OBRA 1990
         resulted in overall price increases for drugs purchased by Federal health care programs as
         well as inflation in the commercial market.

         In order to remove the disincentive for manufacturers to give Federal programs the best
         possible price, the Veterans Health Care Act of 1992 (VHCA) was enacted. The VHCA
         also attempted to establish price controls to limit the cost of drugs to Federal purchasers
         and certain grantees of Federal agencies. In particular, Section 601 of VHCA corrected
         the pricing problems created by OBRA 1990 by excluding sales to Federal agencies from
         the calculation of the BMP. Section 602 of the Act enacted section 340B of the Public
         Health Services Act which provides drug price ceilings to certain grantees of the Public
         Health Service, including ADAPs. Section 603 of VHCA mandated minimum drug
         discounts for the Department of Veterans Affairs (VA), Department of Defense (DOD),
         Public Health Service, including the Indian Health Service, and later the Coast Guard.
         These agencies are commonly known as the Big 4. It additionally required that the four
         agencies be offered access to covered drugs and their statutorily discounted prices through
         the Federal Supply Schedule.




ADAP Cost Containment Strategies                          8                             OEI-05-99-00610
Section 602: 340B Drug Pricing Program

         Section 602 of VHCA enacted Section 340B of the Public Health Services Act. This
         statute requires manufacturers, as a condition for the receipt of Medicaid matching funds,
         to sign a pharmaceutical pricing agreement with the Secretary of Health and Human
         Services agreeing to charge a price for covered drugs not to exceed the amount
         determined by statutory formula. This formula is roughly the AMP decreased by the
         Medicaid unit rebate amount. The Health Care Financing Administration (HCFA)
         recalculates the ceiling price, using the specified statutory formula, on a quarterly basis for
         the 340B Drug Pricing Program.

         The ADAPs are included in Section 602's list of ‘covered entities’, making them eligible
         for 340B pricing discounts. Although the 340B program discounts are statutorily defined,
         participation remains voluntary. Those wishing to participate must comply with the
         following statutory requirements to access 340B discounts:

         1.)       Not request a discount for a drug subject to a Medicaid rebate;
         2.)       Not resell or otherwise transfer a discounted drug to a person who is not a patient
                   of the entity;
         3.)	      Maintain records of purchases and permit the Secretary and manufacturers to audit
                   entity records pertaining to the drugs in question, in accordance with procedures
                   established by the Secretary, to assure compliance with the first two requirements;
         4.)	      Repay the manufacturer the amount of 340B discounts received for any violations
                   of the first two requirements, if the manufacturer seeks restitution.

ADAPs Participation in the 340B Drug Pricing Program

         The CARE Act allows States significant flexibility in the design of their ADAP program.
         Generally, States’ purchasing/distributing systems divide them into two categories: direct
         purchase and rebate States. However, State ADAPs operate in dynamic environments, so
         the description of each program that follows is a snapshot taken at a fixed point in time.

         A direct purchase State purchases the drugs centrally through a State pharmacy,
         purchasing agent or public agency/hospital. At the time this study was conducted, twenty-
         three ADAPs participated in the 340B direct purchasing option1. A rebate State contracts
         with a pharmacy network/pharmacy benefits management company for the purchase of
         drugs and then reimburses them. At the time this study was conducted, twenty-four
         ADAPs received standardized rebates on drugs purchased from pharmacies through the
         340B rebate option. Five ADAPs obtained voluntary manufacturer rebates to help contain
         drug costs, but elected not to participate in the 340B program.



         1
                   As of August 2000, only 22 ADAPs participate in the direct purchase option.
ADAP Cost Containment Strategies                                     9                           OEI-05-99-00610
         The remaining two ADAPs (Washington, DC and Guam) had instituted other purchasing
         mechanisms.

         Section 340B contains no explicit language as to whether the required reduction in price
         should be obtained by a point-of-purchase (direct purchase) or through manufacturer
         rebates. When initially enacted, section 340B was only an option for the direct purchase
         States with a centralized purchasing agent. However, many ADAPs were initially
         established to operate under a pharmacy reimbursement model similar to Medicaid,
         without a centralized purchaser. This structure prevented those States’ participation in the
         discount program. The HRSA issued a notice in the Federal Register on June 29, 1998
         recognizing a rebate option for State ADAPs under 340B. States selecting this option
         would now receive the full statutory Medicaid rebate, lessening the burden on them to
         negotiate with individual manufacturer’s for voluntary rebates.

         It is generally believed that participation in the 340B direct purchasing option is currently
         the best option for ADAPs to maximize savings on pharmaceutical purchases. The ceiling
         price for the 340B direct purchasing option is approximately the AMP minus the Medicaid
         unit rebate amount. The ADAPs that utilize the 340B rebate option also obtain the
         Medicaid unit rebate amount from manufacturers, but only after reimbursing retail
         pharmacies at the average wholesale price (AWP), which tends to be higher than the
         AMP. Further, several Office of Inspector General (OIG) evaluations have indicated that
         government prices based on AWP are considerably more than prices available to
         commercial purchasers.

         For those ADAPs not participating in the 340B program, one reason often cited is that the
         implementing guidelines that limit an entity to one contract pharmacy are too restrictive,
         limiting client access to needed drugs. Other ADAPs believe their drug purchasing and
         distribution arrangements provide them with lower costs than can be obtained by the 340B
         program, once all administrative costs are taken into consideration.

         The HRSA published a proposal in the Federal Register on October 22, 1998 that would
         have made participation in the 340B program a grant requirement for eligible entities.
         After receiving negative feedback, HRSA decided that although it will not be a grant
         requirement, it is a program expectation.

Prime Vendor Provision

         Another 340B provision (340 (a)(8)) mandates the Secretary to establish a Prime Vendor
         Program for covered entities. The prime vendor would assist covered entities not only in
         accessing the 340B manufacturer drug price reductions, but also in negotiating
         competitive pricing for wholesaler drug distribution. In September 1999, HRSA
         announced its contract with Bergen Brunswig Drug Company (BBDC) making it the first
         prime vendor for the 340B Drug Pricing Program.

ADAP Cost Containment Strategies                         10                              OEI-05-99-00610
         As prime vendor, BBDC will negotiate lower prices with about 600 pharmaceutical
         companies based on the large nationwide buying power of the 12,000 entities eligible to
         participate. Under the contract, BBDC will consolidate drug sales and delivery, resulting
         in lower distribution costs, reduced turn around time for delivery of drugs and decreased
         inventory costs.

         The new Prime Vendor Program will offer ADAPs participating in the 340B direct
         purchasing option another cost containment strategy. Participation is voluntary, but the
         benefits to participants will be greatest if all eligible entities register to be prime vendor
         customers. Those ADAPs utilizing the rebate option and those not participating in the
         340B Drug Pricing Program are not eligible to participate in the Prime Vendor Program
         for the same reasons they are not eligible for up-front pricing discounts. Intended as the
         primary vehicle for future drug discounting, HRSA anticipates the Prime Vendor Program
         to provide the best available pricing for its eligible entities.

Section 603: Federal Ceiling Prices and the Federal Supply Schedule

         As previously stated, Section 603 of VHCA mandated minimum drug discounts for four
         Federal agencies known as the Big 4. Specifically, the law states that prices to the Big 4
         may not exceed 76 percent of the non-Federal average manufacturer price (non-FAMP).
         These statutorily discounted prices are typically referred to as the Federal ceiling prices.
         The law additionally requires that the four agencies be offered access to covered drugs
         and their Federal ceiling prices through the Federal Supply Schedule.

         The FSS provides a schedule of contracts and prices for covered and non-covered drugs
         that allow agencies to purchase various quantities of pharmaceuticals while still obtaining
         the discounts associated with bulk purchasing. General Services Administration
         Administrative Order 4800.2E lists who has access to the FSS. While it includes the
         Public Health Service, it excludes Federal grantees such as ADAPs.

         The VA manages several Federal Supply Schedules dealing with health care commodities
         for the entire Federal Government, including Schedule 65 I B for pharmaceuticals. In this
         capacity, it negotiates contracts using a non-competitive FSS negotiation procedure. The
         FSS contracted prices of covered drugs for the Big 4 may not exceed the statutory Federal
         ceiling prices stipulated in Section 603 of VHCA. To assure that the statue is being
         executed properly, the VA annually recalculates all Federal ceiling prices based on
         manufacturers’ annual reports of non-FAMP for each covered drug. However, the
         contract prices for other entities allowed to use the FSS are usually negotiated based on
         ‘most favored customer price’ disclosures and may exceed the statutory ceiling. These
         negotiated prices are called the FSS Other Government Agency contract prices. These
         prices are frequently what non-Big 4 agencies authorized to use the FSS pay for drugs.




ADAP Cost Containment Strategies                          11                              OEI-05-99-00610
         Of course, if a manufacturer wishes, it may maintain a single price list offering Big 4 or
         better prices to all FSS ordering activities. Many manufacturers do this to avoid having
         two price lists.

Non-Federal Average Manufacturer Price

         Section 603 of VHCA created a Big 4 Federal ceiling formula based on the non-FAMP.
         Non-FAMP is defined as “the weighted average price of a single form and dosage unit of
         the drug that is paid by wholesalers in the United States to the manufacturer, taking into
         account any cash discounts or similar price reductions during that period, but not taking
         into account (A) any prices paid by the Federal Government, or (B) any prices found by
         the Secretary to be merely nominal in amount.” In other words, non-FAMP is the
         manufacturers weighted average of commercial, non-Federal sales per unit.

         The VA has determined that sales through a wholesaler at the 340B ceiling price should
         be excluded from the calculation of non-FAMP since they are statutorily defined prices.
         However, the VA considers any sales to 340B entities below the ceiling price as
         commercial sales, and includes these sales in the calculation of non-FAMP. This
         interpretation of non-FAMP by the VA has hindered 340B entities’ ability to successfully
         negotiate drug prices that are below the ceiling. Manufacturers do not want to sell at
         below 340B ceiling prices because those sales, unlike sales at the ceiling price which are
         exempt, will be reported as part of the non-FAMP. The inclusion of extremely low prices
         in the non-FAMP lowers the non-FAMP and subsequently the Federal ceiling prices that
         are calculated from it. In this way, sales to 340B entities below the ceiling prices
         negatively impacts the price manufacturers must give the Big 4. This creates a
         disincentive to provide the lowest possible prices to 340B entities.

Related Work by the Office of Inspector General

         The Office of Inspector General has released two reports regarding ADAP cost
         containment policies in the past few years. The first report, Audit of State AIDS Drug
         Assistance Programs’ Use of Drug Price Discounts (A-01-97-01501), focused on
         whether HRSA ensured that ADAPs effectively utilized available discount drug pricing
         programs. They concluded that participation in the 340B direct purchase option by all
         ADAPs could save the program a considerable amount of money and allow them to
         provide needed drugs to a larger number of individuals living with HIV/AIDS. The
         second report, Audit of the Utilization of the Public Health Service 340B Drug Pricing
         Program (A-01-98-01500), reviewed whether all eligible PHS funded entities effectively
         utilized the 340B Drug Pricing Program. They found that 66 percent of the eligible HRSA
         grantees in 1998 did not participate in the program.

         The OIG has also conducted a variety of studies concerning Medicare payments for
         prescription drugs. Most notably, Comparing Drug Reimbursement: Medicare and

ADAP Cost Containment Strategies                         12                              OEI-05-99-00610
         Department of Veterans Affairs (OEI-03-97-00293) compared Medicare drug allowances
         and the prices available to the VA. This report found that Medicare could save $1 billion
         in 1998 if the allowed amounts for the 34 drugs studied were equal to the prices obtained
         by the VA.

SCOPE AND METHODOLOGY

         This inspection is a review of the 340B ceiling prices and the prices actually paid by AIDS
         Drug Assistance Programs for 10 commonly prescribed antiretroviral drugs. Specifically,
         we compared these prices to the Federal ceiling prices listed in the Federal Supply
         Schedule.

         All of the price comparisons made are for the first three quarters of 1999 since this was
         the most current data HRSA and many ADAPs had on specific antiretroviral expenditures
         and rebates at the time data collection was conducted. All savings estimates based on this
         information have been annualized and only reflect the Federal share of ADAP funding. In
         FY 1999, Federal funding averaged 80 percent of total ADAP funding. The remaining 20
         percent comes from the State general revenue funds and other sources.

         Out of the expansive ADAP formularies, we focused on antiretroviral drugs because they
         constitute the most prescribed and effective drug therapies for treating HIV/AIDS.
         According to the ADAP Monitoring Project 1999 Annual Report, antiretroviral
         expenditures comprised 88 percent of overall ADAP spending in June 1998. We selected
         10 brand name, single source drugs of the possible 16 Food and Drug Administration
         approved antiretroviral drugs. The 10 drugs we reviewed and their National Drug Codes
         are listed in Appendix B.

         We based the comparison of prices on the drug acquisition cost. For the purposes of this
         study, we define drug acquisition cost as the basic cost of the drug to the ADAP. This
         includes all discounts, rebates or any other benefits. It also includes any additional fees
         charged by wholesalers or other contracted middle-men. For example, the Texas ADAP
         contracts with a prime vendor to purchase drugs. The prime vendor supplies the ADAP
         with all the drugs on its formulary for 340B ceiling prices plus a one percent distribution
         fee.

         Our definition of acquisition cost does not incorporate the overall program costs of
         delivering pharmaceuticals to eligible clients. This narrow definition of drug cost was
         necessary to control for the differences in administrative and drug distribution systems
         between the ADAPs and the agencies that access the FSS Federal ceiling prices. Further,
         specific administrative data was unavailable since ADAPs typically do not break-out
         overhead costs, such as storage and distribution, per drug.

         Unfortunately, this narrow definition of drug cost does not entirely control for the

ADAP Cost Containment Strategies                         13                              OEI-05-99-00610
         difference between the rebate ADAPs and the Big 4 agencies that access the Federal
         ceiling prices. The Big 4 agencies, like the direct purchase ADAPs, buy needed
         pharmaceuticals directly from a manufacturer or wholesaler. This is their acquisition cost.
         Rebate States, on the other hand, typically reimburse pharmacies for drugs dispensed to
         ADAP clients at retail drug prices minus a small pharmacy discount. These higher retail
         prices, to some extent, reflect the pharmacies’ role in storing and disbursing the drugs on
         behalf of the rebate ADAPs. In order to account for the hidden storage and distribution
         fees incorporated into these prices, a separate analysis was conducted. In this analysis, we
         subtracted out an industry average for these costs from rebate ADAPs reimbursement
         expenditures in order to make them more comparable to the Federal ceiling acquisition
         prices.

         To conduct our analysis, we reviewed the ADAP Monthly Report for the first three
         quarters of FY 1999. This report tracks the unit price, the unit rebate amount, the volume
         prescribed and the dispensing fees for a limited set of pharmaceuticals. We also reviewed
         the FY 1998 AIDS Pharmaceutical Assistance Annual Administrative Report, the State
         ADAP Profiles, and the ADAP portion of Title II applications for FY 1999.

         We also gathered information regarding pharmaceutical pricing from HCFA and the VA.
         The HCFA supplied us with the 340B ceiling prices and the Medicaid unit rebate amount
         information. The VA provided us with data on the FSS Federal ceiling and the FSS
         contract prices.

         To gather data on actual State ADAP expenditures, we sent a survey to each of the 52
         operational ADAPs. Surveys were distributed via facsimile in February 2000 and the
         survey data was collected between February and April 2000. We received 49 surveys back
         for a response rate of 94 percent. New Hampshire, Wyoming and Maine were unable to
         provide us with the information we requested.

         The survey requested States to record their ADAP expenditures for the first three quarters
         of 1999. For each of the 10 drugs, ADAPs listed the unit price, quantity for a 30 day
         supply, total quantity for the quarter, and dispensing, transaction and administrative fees
         where applicable. States utilizing the 340B rebate option or States obtaining other
         manufacturer rebates also reported the unit rebate amount, total rebate amount and the
         number of units that received a rebate. The survey also asked States to describe their
         ADAP’s structure for purchasing and distributing drugs in order to get a contextual
         understanding of drug purchasing expenses.

         We conducted extensive follow-up on the survey. On March 1, 2000, we hosted a
         national teleconference arranged by the National Alliance of State and Territorial AIDS
         Directors for ADAP Directors. The purpose of the teleconference was to discuss the
         complexities of individual programs and to reach agreement on how to uniformly report
         data. We spoke individually with State programs where necessary for clarification.


ADAP Cost Containment Strategies                         14                             OEI-05-99-00610
         We have taken precautions not to disclose any information that would allow the reader to
         trace back to the manufacturers price since this is proprietary information. Towards this
         end, all estimates have been rounded. We conducted our review in accordance with the
         Quality Standards for Inspections issued by the President’s Council on Integrity and
         Efficiency.




ADAP Cost Containment Strategies                        15                            OEI-05-99-00610
                                      FINDINGS

ADAP ceiling prices are on average 16 percent higher than
Federal ceiling prices
         The ceiling prices limiting drug expenditures for ADAPs are, on average, 16 percent
         higher than the Federal ceiling prices limiting drug costs for the Big 4. For the 10 sample
         drugs the ceiling prices available to ADAPs during the first three quarters of 1999 are at
         least 12 percent more than the Federal ceiling prices and range up to 21 percent more. As
         a result, ADAPs that take advantage of the ceiling prices offered by the 340B drug
         pricing program will pay anywhere from 9 cents to 70 cents more per pill than the Big 4
         pays for the same drug. On average, ADAPs will pay 29 cents more per pill and 32
         dollars more per bottle than the Big 4 agencies pay for the same drug.

         The formulas for both 340B and Federal ceiling calculations are stipulated in the Veterans
         Health Care Act of 1992. The intention of this legislation was to place limits on the prices
         of drugs procured by Federal purchasers. Yet the ceiling price calculations stipulated for
         each program are different resulting in prices that are consistently higher for entities
         covered under Section 602. Section 602 of VHCA lays out a statutory calculation for the
         ceiling prices available to ADAPs that is roughly equivalent to AMP, disregarding Federal
         sales, minus the Medicaid unit rebate amount. This rebate ranges from 11 to 15 percent.
         The statutory formula laid out in Section 603 stipulates that Big 4 are required to receive a
         minimum 24 percent discount off the non-Federal Average Manufacturer Price which is
         the AMP disregarding Federal sales. Thus, ADAPs are receiving 11 to 15 percent off a
         non-FAMP equivalent while the Big 4 are guaranteed 24 percent off non-FAMP.

         While Section 602 and 603 ceiling prices determine the highest amount that covered
         entities can pay for pharmaceuticals, there is nothing in the law prohibiting the negotiation
         of prices lower than the stipulated ceiling prices. In fact, Section 602 (10) reads, “Nothing
         in this statute shall prohibit a manufacturer from charging a price for a drug that is lower
         than the maximum price.” However, only 4 of the 22 ADAPs in the direct pricing
         program indicated that they had been able to negotiate below 340B ceiling prices. The
         VA is typically able to contract below their ceiling price for approximately one-third of the
         covered pharmaceuticals. Even with this potential, ADAPs are at a disadvantage given
         that they start their negotiations from a higher ceiling, do not individually command
         enough volume to demand large concessions and manufacturers’ have a disincentive to
         negotiate below ceiling prices with ADAPs since these prices will be included in non-
         FAMP.




ADAP Cost Containment Strategies                         16                              OEI-05-99-00610
ADAPs could have saved nearly $58 million in 1999 if allowed
to purchase the 10 drugs at Federal ceiling prices
         Comparing the actual per drug expenditures of the ADAPs to what they would have paid
         if they had access to Federal ceiling prices, results in $57.5 million in Federal savings for
         ADAPs in 1999. This savings represents 22 percent of the $266 million paid for these
         drugs with Federal funding in 1999. Considering expenditures from all sources of funding,
         State, local and Federal, ADAPs could have saved $72 million if given access to Federal
         ceiling prices.

         A general estimate of ADAP savings for all drugs can be obtained from analyzing the
         FY 1998 AIDS Pharmaceutical Assistance Annual Administrative Report. In this annual
         document, ADAPs reported drug expenditures of $538 million on 576 pharmaceuticals.
         The Federal portion of that spending would be approximately $432 million. If ADAPs
         were able to obtain the 16 percent average amount of savings indicated by our analysis,
         the estimated savings would be $69 million. Again, we would expect this savings estimate
         to have increased since FY 1998 given that prescription drug costs are the fastest growing
         segment of health care costs. Since 1993, they have risen at a 12 percent annual rate. The
         ADAP increases in drug expenditures are consistent with this national trend. The March
         1999 National ADAP Monitoring Project indicates that national per client ADAP
         expenditures increased by 12 percent between 1997 and 1998. A 12 percent increase in
         costs would place the estimated FY 1999 savings for all drugs at $77.3 million.

The majority of savings derives from 3 of the 10 pharmaceuticals

         The ADAPs could have saved $36.8 million, representing over half of the total savings
         estimate, if they were able to purchase just 3 of the 10 drugs at the Federal ceiling prices.
         Purchasing Viracept at Federal ceiling prices would have saved $14 million. The ADAPs
         could have saved another $13 million by purchasing Combivir at Federal ceiling prices and
         $9.6 million on D4T purchases. The median savings for all 10 drugs is $4 million.

         For Combivir and Viracept, the large potential savings reflect the fact that these are
         expensive, heavily prescribed pharmaceuticals. Any reduction in cost will have significant
         program savings. According to the data we received for the first three quarters of 1999,
         approximately 139,000 bottles of Combivir were procured by the ADAPs. This represents
         the third largest volume of any of the 10 drugs. Viracept had the fourth highest volume at
         136,000 bottles. Viracept and Combivir are also among the most expensive of the drugs
         we reviewed.

         While D4T was the most heavily prescribed drug of the 10 we analyzed with 175,000
         bottles, it is also the pharmaceutical with the largest difference between the 340B price




ADAP Cost Containment Strategies                         17                              OEI-05-99-00610
         and the Federal ceiling price. The 340B ceiling price for D4T is 21 percent higher than the
         FSS Federal ceiling price.

ADAPs could have served thousands more people living with HIV/AIDS

         The $57.5 million savings could have purchased additional pharmaceuticals to meet the
         pharmaceutical needs and improve the lives of several thousand more individuals living
         with HIV/AIDS. Using the estimate of $12,000 a year for combination antiretroviral
         therapy, the savings could have purchased an complete regimen for almost 5,000
         additional clients in 1999.

         Focusing solely on the three drugs with the most savings, Viracept, Combivir and D4T,
         also results in a substantial increase in patient access to life-saving therapeutics. The
         $57.5 million in savings could have purchased an additional 414,000 bottles of D4T at
         Federal ceiling prices. This translates into a prescription of a bottle per month for 34,500
         patients. Alternately, the $57.5 million in savings could have purchased 176,000
         additional bottles of Combivir for 14,700 patients’ annual needs or 166,400 bottles of
         Viracept for 14,000 patients.

         Demand already exists for the greater capacity that these savings would create. According
         to the Kaiser Family Foundation’s ADAP Monitoring Report, as of July 1999, there are 11
         ADAPs with waiting lists of eligible clients. Other ADAPs have capped the amount of
         expenditures per patient or created an enrollment cap in order to deal with the inequity
         between demand and available resources.

         Demand for HIV/AIDS pharmaceuticals continues to increase. The standard of care for
         persons living with HIV/AIDS is increasingly reliant on drug therapy. The National
         Institutes of Health/PHS Guidelines for the Use of Antiretroviral Agents in HIV Infected
         Adults and Adolescents calls for the use of combination antiretroviral therapy comprised
         of at least three drugs. Additionally, the numbers of HIV-infected, low-income,
         traditionally underserved, population are climbing. This in combination with the fact that
         approximately 75 percent of the HIV population has no private health insurance will
         continue to place increasing demands on the ADAPs to provide more pharmaceuticals.

Given access to Federal ceiling prices, ADAPs enrolled in the
direct purchase option would save $14 million. ADAPs
utilizing the rebate option would save $39 million
         All State ADAPs showed significant savings when the prices they paid for drugs were
         compared to the Federal ceiling prices. When broken out by the type of 340B
         participation, direct purchase States (22 ADAPs) would save $14.4 million and rebate
         States (22 ADAPs) would save $39 million. For the five non-participating States, the


ADAP Cost Containment Strategies                         18                              OEI-05-99-00610
         savings equals $4 million, bringing the total to $57.5 million in Federal savings. Appendix
         A contains a break-out of program saving by State ADAP.

Even though Direct purchase States access the 340B ceiling price, there are significant
program savings when compared to the Federal ceiling prices

         Even though direct purchase States buy drugs at the best price available to ADAPs, they
         would be paying $14.4 million less if granted access to the Federal ceiling prices. The
         three direct States that would produce the largest savings are Louisiana, Puerto Rico and
         Texas. These are three of the largest ADAP programs operating. The savings in these
         three States would total $7.4 million. The range of savings for direct purchase States is
         $23,000 in Delaware to $3 million in Texas with median savings of $436,000.

Comparing rebate States drug expenditures to the Federal ceiling prices results in the most
program savings for the drug assistance program

         Rebate States would have saved $39 million if granted access to the Federal ceiling prices.
         The three rebate States producing the most savings are California, New Jersey and New
         York, with combined savings of $29 million. Their savings represent 75 percent of the
         total $39 million in savings from rebate States and could impact the nearly 40,000 clients
         enrolled in those States. The range of savings for rebate States was $22,000 in Alaska to
         $13.7 million in New York, with median savings of $575,000.

         The excessive amount rebate States pay for drugs is related to the reimbursement model
         they utilize. Rebate ADAPs reimburse pharmacies at the average wholesale price (AWP),
         or the suggested list price for retailers set by manufacturers, minus a pharmacy discount.
         Our data showed a range of pharmacy discounts of 10 to 16 percent. The average
         discount obtained was 12.2 percent. In addition to these pharmacy discounts, rebate
         ADAPs receive the Medicaid unit rebate amount from manufacturers on a quarterly basis.
         Direct purchase ADAPs also use the Medicaid URA to discount the cost of drugs, but it is
         subtracted from the lower AMP, the average manufacturers price, prior to the drug
         purchase.

         For the 10 drugs we examined, we found AWP, the base drug price paid by rebate
         ADAPs, to be 25 percent higher than AMP. This finding parallels an analysis of
         pharmaceutical pricing by the National Association of Chain Drug Stores. They found
         that in 1999 only 75.7 percent of the cost of a prescription went to the manufacturer.

         In order to reduce drug expenditures, rebate and nonparticipating ADAPs have instituted
         various additional cost containment measures. These efforts include obtaining pharmacy
         or additional manufacturer discounts, voluntary rebates and the subsidy of private




ADAP Cost Containment Strategies                        19                              OEI-05-99-00610
         insurance premiums or co-payments2. The $39 million savings projection takes into
         account pharmacy discounts and all manufacturer rebates. It does not take into account
         savings obtained through the subsidy of private insurance since this cost containment
         measure would still be viable if ADAPs were granted access to Federal ceiling prices.
         Nine States3 supplied us with information regarding savings achieved through the subsidy
         of private insurance. The savings gained from providing insurance in these nine States
         totaled $4.3 million.

         In order to analyze the impact of hidden distribution fees on our comparison, we
         performed a separate analysis of rebate ADAPs. This comparison took into consideration
         the fact that the prices rebate ADAPs pay may include storage and distribution costs
         whereas the Federal ceiling prices do not. Thus, we subtracted a standard distribution fee
         from the drug prices reported to us by the rebate States.

         The National Association of Chain Drug Stores estimates 2.3 percent of the retail price of
         drugs goes to wholesalers for storage and distribution costs. On the other hand, Bergen
         Brunswig believed that recent trends in the commercial pharmaceutical industry have led
         to most wholesalers charging distribution fees of 1 percent or less. Finally, the VA has a
         negative distribution fee negotiated in exchange for maintaining their business. Prior to
         the negative fee, the VA was paying .03 percent per bottle in distribution fees. We
         selected the 2.3 percent estimate to provide rebate ADAPs with the most generous
         allotment for distribution fees. In this analysis, we found that rebate States would still
         save $35 million if granted access to Federal ceiling prices. States not participating in the
         340B program would still save $3.4 million.




         2
                    Direct purchase ADAPs can also implement a health insurance component within their program.
         3	
                    Of the nine ADAPs that reported insurance data, 6 were rebate ADAPs, 2 were non-participating ADAPs
                    and one was a direct purchase ADAP.

ADAP Cost Containment Strategies                                    20                                    OEI-05-99-00610
                             RECOMMENDATIONS

         Two primary concerns regarding the cost effectiveness of ADAP expenditures are drug
         acquisition and drug distribution. In many ways these two issues are intertwined since the
         method of distribution can determine an acquisition model. In this inspection, we focused
         primarily on the base acquisition cost of the drugs in order to compare prices across
         government programs. While we recognize that this is a simplified picture and did take
         steps to estimate distribution expenditures, we strongly feel that lower acquisition costs
         would be advantageous to the program and its ability to provide life-saving drugs to
         low-income individuals living with HIV/AIDS. Once this option for low cost drugs is
         made available to ADAPs, the more complicated comparison of distribution systems can
         be made and the most economical, efficient and accessible means to distribute HIV/AIDS
         pharmaceuticals can begin to be addressed.

         Fundamentally, any program savings translates into an enhanced ability to serve those in
         need. Access to Federal ceiling prices would result in overall program savings of $72
         million. This level of savings could provide a year’s regimen of combination therapies to
         thousands of additional clients. In fact, demand already exists for the greater capacity that
         would be created with these savings. Facing an increasing rate of HIV infection among
         low-income individuals, several ADAPs have been forced to institute program limitations
         in the form of waiting lists, enrollment caps and per client expenditure limits in order to
         deal with the inequity between demand and available resources.

HRSA should seek legislation to change the 340B ceiling
price calculation to the Federal ceiling price calculation
         We recommend that HRSA work towards legislatively changing the calculation of the
         340B drug price ceiling in the public health statutes to the statutory formula mandated in
         Section 603 of the Veterans Health Care Act of 1992. Changing this ceiling calculation
         would create significant Federal savings of $57.5 million for ADAPs. While our study
         focused on ADAP cost savings, ADAPs are only one of the entities that would be
         impacted by changing the 340B ceiling prices. However, there is no logical reason to
         carve out ADAPs from the rest of the 340B eligible entities since all of the entities are
         purchasing drugs with Federal dollars. Further, there is no reason why all federally
         appropriated funds covered by the law should not be spent in the most economical way in
         order to serve additional medically needy clients. Although it was not in the scope of our
         study to provide a precise estimate regarding the savings available to all 340B Drug
         Pricing Program eligible entities, a 16 percent reduction in the ceiling price could save
         these entities $240 million in Federal funds.



ADAP Cost Containment Strategies                         21                              OEI-05-99-00610
         Technically, there are three parts to the 603 pricing formula. The base calculation is AMP
         minus 24 percent. The second part of the calculation is an annual adjustment using the
         Consumer Price Index for urban consumers. This is intended to ensure that the ceiling
         prices do not increase more than the rate of inflation. The third part of the calculation is a
         dual calculation performed starting the second year of a multi-year contract. This
         calculation compares the inflation adjusted AMP minus 24 percent to the previous year’s
         FSS contract prices adjusted for inflation. The lower of the two prices becomes the new
         Federal ceiling price. We recommend that only the first two aspects of the calculation be
         utilized to create a ceiling price for the 340B entities. Since the dual calculation entails
         using prices from the previous years’ FSS contracts, it would create a link between the
         pricing of these two groups. We are concerned that this linkage could have a detrimental
         effect on the ability of the VA to negotiate the lowest possible prices for the FSS.

         Changing the ceiling calculation would further the legislative intent of VHCA to limit the
         prices of drugs to government purchasers. Although VHCA successfully established
         ceiling prices to limit costs for a specified group of entities, it failed to produce a single
         discount ceiling for all Federal purchases made by these organizations. Section 603 covers
         direct Federal purchasers while Section 602 generally covers entities that make
         pharmaceutical purchases with Federal dollars. Despite the fact that both are expending
         Federal dollars, entities covered by 602 are provided with a smaller discount. We
         recommend that the current inequity within the law be rectified by standardizing the
         ceiling calculation for all entities covered under Sections 602 and 603 of VHCA. Section
         603 ceiling prices already cover the Public Health Service and “any entity that receives
         funds under the Public Health Service Act.”

         Limiting pharmaceutical costs is even more critical today than when VHCA was passed in
         1992. Medical advances have produced drugs that are often the therapy of choice for
         persons living with HIV/AIDS. These medications have the power to improve quality of
         life by inhibiting the progression of the disease and to prolong life. The PHS recently
         issued guidelines promoting the use of combination antiretroviral drug therapy for treating
         persons living with HIV as well as AIDS. As a result of this reliance on drug therapy,
         pharmaceutical purchases have been increasing at a dramatic rate.

         Changing the calculation would be beneficial because the 340B prices would no longer be
         tied to the Medicaid rebate calculation. Currently, the Section 602 calculation is AMP
         minus the Medicaid URA. Medicaid is a reimbursement program whereas the 340B Drug
         Pricing Program is intended to provide an up-front discount off the purchase price4 of
         pharmaceuticals. This difference in structure has lead to technical problems regarding



         4	
                    A 340B rebate option was designed to specifically accommodate those ADAPs with a reimbursement
                    structure. Only ADAPs are eligible to participate in this option. At the time this study was conducted, 23
                    ADAPs participated in the rebate option.

ADAP Cost Containment Strategies                                       22                                      OEI-05-99-00610
         calculating the ceiling prices. Medicaid allows changes to the Medicaid URA data to be
         implemented retroactively. Since the 340B provides an immediate discount at point of
         purchase, many of these retroactive changes are never reflected in the discount they are
         provided. Adjustments have proven difficult to identify and implement. On the other
         hand, Section 603 pricing, administered by the VA, is similar to the 340B program in that
         it is an up-front, time of purchase discount program. Further, the VA has reliable, easily
         validated data that is tracked as pricing changes occur.

         Making this change will impact the manufacturers in several ways. Primarily, the change
         would allow all 340B covered entities to access outpatient covered drugs at the lower 603
         Federal ceiling prices. Beyond the 52 ADAPs, there are close to 12,000 eligible 340B
         entities. However, it has been estimated that only 66 percent of them participate in the
         340B Drug Pricing Program. In total, pharmaceutical expenditures by 340B entities in
         1999 represented approximately 1 percent of the domestic pharmaceutical market. The
         Big 4 agencies, already covered under Section 603, represent just another one and a half
         percent of the market. By means of comparison, Medicaid comprised 10 percent of the
         market. A potential benefit for the manufacturers is a simplified, uniform Federal pricing
         system to track and report, with price-changing data submissions and recalculations
         required only once a year. Currently, manufacturers report quarterly data to HCFA and
         face quarterly recalculation of drug prices for the 340B drug pricing program.

         Given the limited scope of the proposed changes, it seems likely that any loss due to lower
         Federal prices to these 12,000 entities could be regained in additional sales volume. At
         the time this study was conducted, five ADAPs had waiting lists while the demand for
         combination therapies of two or three drugs continues to accelerate. Further, the
         incremental costs of producing additional drugs is minimal. Most of the investment
         typically occurs during the research and development phases. However, in the case of
         these 10 drugs, even these expenses have been mitigated by the Federal subsidy of basic
         research and clinical trial testing. Given these facts, manufacturers should be able to
         produce more drugs without significantly eroding their profit margin and their ability to
         recoup their initial investments.

         This recommended change could also mean some adaptations for the VA. The VA
         calculates the Federal ceiling price for the Big 4 annually based on manufacturer’s reports.
         To maximize efficiency, it would be beneficial if the VA would enter into a data sharing
         agreement with HRSA to annually provide this ceiling price information to them.
         Although both the Big 4 and 340B eligible entities would have access to the same ceiling
         prices for outpatient covered drugs, the programs would stay discrete. The entities
         benefitting from 602 and 603 are very different in ownership and control, creating great
         differences in the administration of the two programs. Further, HRSA’s prime vendor is
         perfectly situated to negotiate contracts at or below the 603 ceiling price for the 340B
         covered entities similar to the way the VA negotiates annual contracts for users of the FSS
         including the Big 4.


ADAP Cost Containment Strategies                         23                             OEI-05-99-00610
         While the legislative process to accomplish these changes is underway, HRSA should
         encourage the prime vendor to negotiate prices that resemble those the Big 4 currently
         receive. Maximum impact could be achieved by focusing on the drugs or the State
         ADAPs that we found to have the largest potential for program savings.


To allow ADAPs to negotiate the lowest prices possible,
HRSA should seek legislation to exempt all sales to 340B
covered entities from the calculation of Non-Federal Average
Manufacturers Price
         To accomplish this, we recommend that HRSA seek to add exclusionary language to the
         statutes codifying the 340B drug pricing program (42 USC 256B) stating that any price
         negotiated by the prime vendor or any 340B eligible entity below the 340B statutory
         ceiling price would be excluded from the calculation of the non-FAMP. Currently, sales at
         the 340B ceiling price are excluded from the non-FAMP calculation, but sales below the
         ceiling are considered commercial sales by the VA and are included in the calculation.

         The inclusion of sales below the 340B ceiling price in non-FAMP creates disincentives for
         manufacturers to negotiate prices that are lower than ceiling prices for ADAPs. The VA
         considers sales to 340B entities below the 340B ceiling price as commercial sales, and
         therefore, includes them in the calculation of non-FAMP. Non-FAMP is fed into the VA’s
         calculation of the Federal ceiling prices. The inclusion of extremely low prices, such as
         prices below the 340B ceiling, could lead to lower ceiling prices for the large volume
         purchased by the Big 4. This potential of racheting down Federal ceiling prices
         discourages manufacturers from offering lower than ceiling prices to 340B entities.

         The inclusion of sales below the 340B ceiling price in non-FAMP does not appear to
         support the intent of VHCA or Congressional mandates. The VHCA specifically does not
         prohibit manufacturers from offering prices below the ceiling. Section 340B (10) states
         that there is “no prohibition on a larger discount” from manufacturers to 340B eligible
         entities. In light of this, the Congress has encouraged covered entities to aggressively seek
         drug price reductions as a means to expend their resources in the most economical way
         feasible. Further, Congress excluded Federal sales from the calculation of Best
         Manufacturers Price in Section 601 of VHCA in order to correct a similar pricing
         disincentives faced by government purchasers due to the implementation of the Medicaid
         Rebate Program.

         This non-FAMP issue presents a major barrier to HRSA’s Prime Vendor in their ability to
         negotiate the lowest possible prices. If lower than ceiling price sales to 340B entities
         continue to be included in non-FAMP, the prime vendor cannot successfully negotiate for
         prices lower than the 340B ceiling, currently, or lower than the 603 ceiling potentially.

ADAP Cost Containment Strategies                         24                              OEI-05-99-00610
         Several manufacturers have made it clear to HRSA that they will not offer deeper
         discounts to 340B eligible entities until the non-FAMP issue is resolved. The ability to
         offer considerable discounts is pivotal to the success of the Prime Vendor Program since it
         is a voluntary program. The more entities it can persuade to join the program by offering
         lower than ceiling prices, the larger its bargaining power, and the more price concessions
         it can negotiate on behalf of the ADAPs.

         Excluding below ceiling prices from non-FAMP will also provide consistency in the
         interpretation of ceiling calculations across the Federal Government. The HCFA excludes
         all 340B sales, ceiling and below, from their calculation of AMP for the Medicaid Rebate
         Program. The VA, on the other hand, includes any 340B sale below the statutory ceiling
         in its calculation of non-FAMP. The AMP, as used by HCFA, and non-FAMP should be
         equivalent since each is calculated to represent the average, non-Federal price paid to
         manufacturers by wholesalers.

         Over the years, HRSA has requested that the VA change their reporting procedure so that
         it does not interfere with the 340B Drug Pricing Program. Specifically, they have asked
         the VA to permit drug manufacturers to exclude all sales to 340B covered entities when
         they report to the VA on their non-FAMP. This repeated administrative request from
         HRSA has proved ineffective, therefore, we recommend a statutory change excluding all
         340B sales from the calculation of non-FAMP.


HRSA should continue to work with rebate and non-
participating ADAPs to devise ways to grant them access to
up-front drug discounts
         Rebate and non-participating ADAPs utilize a reimbursement model for the purchase and
         distribution of pharmaceuticals that prevents them from being eligible for up-front drug
         discounting. They are ineligible for the direct purchase option of the 340B program and
         they will not be able to take advantage of any savings negotiated by the prime vendor.
         Further, their current structure would prevent them from accessing the Federal ceiling
         prices if that legislative change was enacted.

         There are several ways HRSA could work with rebate States to allow them to access
         direct purchase discounts:

         1) HRSA should continue to provide incentives and technical assistance for States to
         join the direct pricing/Prime Vendor option.

         We recognize that HRSA has in the past and continues to strongly encourage all ADAPs
         to participate in the 340B direct purchase option. On October 22, 1998, HRSA released a
         Federal register notice stating that participation in the 340B program would be a


ADAP Cost Containment Strategies                        25                             OEI-05-99-00610
         condition of the grant. While HRSA decided this approach would be too administratively
         burdensome, they did make participation in the 340B program ‘expected.’ The Notice of
         Grant Awards now indicates that if participating in the direct purchase or Prime Vendor
         option is determined to be the most economical means to purchase drugs, “Failure to
         participate may result in a negative audit finding, cost disallowance or grant funding
         offset.”

         The HRSA should work with the remaining rebate and non-participating ADAPs to
         educate them to the significant program savings available through the current up-front
         drug pricing program and the even more dramatic savings potentially available through
         accessing Federal ceiling prices. A 1999 evaluation found that “both non-participating and
         participating entities could benefit from education efforts to help them to better
         understand the program.” Where feasible, HRSA could help ADAPs develop cost-
         effective, creative solutions to restructuring their program. Best practices models could
         be disseminated and used as a starting point to create a system geared to meet the needs of
         each ADAP as well as the eligibility requirements for participation in up-front pricing
         discounts.

         While not suitable for all State ADAPs, one possible way to transform a reimbursement
         system into a system with a single central purchaser, without sacrificing wide distribution,
         would be to engage a mail-order pharmacy. Mail-order pharmacies typically have a 2 day
         turn-around and can ship to any address in the State. Further, mail-order pharmacies are
         high-volume operations and can locate where costs are low, keeping administrative
         expenses low. Illinois recently moved to a mail-order system in order to access 340B
         ceiling prices. They pay the pharmacy a $15.93 per transaction charge. This includes all
         labor and administrative cost as well as dispensing fees.

         2) HRSA should revisit the potential of allowing multiple contract pharmacies.

         Despite HRSA’s efforts to encourage participation in the direct purchase option, there
         remain serious administrative, fiscal, technical and political barriers to altering some
         State’s structures to comply with program eligibility rules. The largest obstacle for most
         rebate and non-participating ADAPs is the program guidance requiring a single State or
         contract pharmacy. The ADAPs with a reimbursement model make use of vast retail
         pharmacy networks that purchase and distribute pharmaceuticals on their behalf.
         Restructuring this system could mean having to develop internal means to purchase,
         warehouse and distribute drugs. It could also mean less convenient access for their
         clients.

         In order to achieve maximum participation in drug price savings, HRSA should support
         the submission of proposals for multiple contract pharmacies and review them for
         potential receipt of up-front pricing discounts. On August 23, 1996, HRSA set forth
         program guidance allowing ADAPs to use contract pharmacy services. It is this program


ADAP Cost Containment Strategies                         26                              OEI-05-99-00610
         guidance, not the law, that holds ADAPs to a single contract pharmacy in order to be
         eligible for 340B direct pricing. However, the guidance also states that HRSA will
         evaluate “ the feasibility of permitting covered entities to contract with more than one site
         and contractor.”

         In order to support the submission of multiple contract pharmacy proposals, HRSA should
         create a system of review for such proposals. They should also provide guidance
         regarding the level of drug diversion and client eligibility safeguards needed to reasonably
         consider allowing a multiple contract pharmacy model. Some of these considerations are
         already outlined in Appendix A, Suggested Contract Provisions, of the Contract Pharmacy
         Services guidance. This document could be expanded to include more specific monitoring
         and reporting standards for rebate and non-participating ADAPs to adhere to if they were
         seeking up-front pricing discounts.

         The potential for drug diversion in a multiple pharmacy model is a concern. Despite the
         fact that the 340B statue contains explicit prohibitions against drug diversion and duplicate
         discounting, the Pharmaceutical Research and Manufacturers of America filed a lawsuit in
         1996 to prevent 340B covered entities from contracting with pharmacies. They claimed
         that “companies cannot adequately protect themselves from diversion of low-price drugs
         to non-covered patients.” In response, HRSA indicated that the Department was unaware
         of any documented instances of intentional drug diversion. They also pointed out that the
         law stipulates that the drug manufacturers and the government have the right to audit
         records of the organizations using the program and that entities are responsible for
         reimbursing manufacturers for any losses due to drug diversion.

         To respond to drug diversion concerns, HRSA could offer specific technical assistance to
         States concentrating on effective ways to safeguard against drug diversion. This could
         entail providing technical assistance regarding effective drug tracking and reporting
         systems and techniques to strengthen eligibility screening. The HRSA has already
         established an initiative to improve ADAP infrastructure by focusing on the development
         of centrally administered, integrated data systems. A 1998 OIG study of ADAP
         monitoring systems, The Ryan White Evaluation Systems: ADAP (OEI-05-98-00390),
         found that drug assistance programs in the eight States visited have centralized computer
         systems that sufficiently track client enrollment and eligibility as well as monitor pharmacy
         claims information. Activity reports from these databases are typically reviewed on a
         monthly, sometimes weekly, basis.

         The rebate option was instituted to allow States with a reimbursement structure to access
         standardized savings greater than those they were able to negotiate on their own. While
         this cost saving measure along with others such as the subsidy of private insurance has
         resulted in program savings, our analysis indicates even greater savings would be achieved
         if the rebate ADAPs could access up-front price discounts similar to those granted the Big
         4. Even when estimated distribution fees are subtracted from rebate and


ADAP Cost Containment Strategies                          27                              OEI-05-99-00610
         non-participating States’ drug expenditures, they would still save $38.4 million at Federal
         ceiling prices. It is necessary to achieve the aim of the 340B program and adhere to
         Congressional mandates that Federal funds are used in the most cost effective way
         possible that rebate and non-participating States be given every opportunity to access low
         cost drugs.




ADAP Cost Containment Strategies                         28                             OEI-05-99-00610
                              AGENCY COMMENTS

         The HRSA concurred with the report’s findings and recommendations. They also offered
         suggestions for clarifying the report and making other technical changes. We appreciate
         their suggestions and, where appropriate, we changed the report to reflect their comments.
         The complete text of HRSA comments can be found in Appendix C. Further staff from
         the office of the Assistant Secretary of Planning and Evaluation (ASPE) expressed
         concerns regarding our first recommendation. We will address their concerns in this
         section.

         In response to our first recommendation, HRSA indicated that they will actively review
         the need for such a legislative change and make an appropriate recommendation to the
         Department. They agreed that changing the calculation of the 340B ceiling pricing to the
         Section 603 pricing formula could further stretch Federal dollars to serve additional
         patients whose current needs remain unmet. Further, they indicated that linking the 340B
         pricing calculation to Section 603, a pricing mechanism intended for up-front discounted
         purchasing, would result in more accurate and timely data for the pricing calculations.

         The HRSA agreed with our second recommendation reiterating the fact that the inclusion
         of sales to 340B covered entities below the current 340B statutory ceiling price into the
         non-Federal Average Manufacturer Price may cause manufacturers to avoid negotiations
         that would provide further discounts to the 340B covered entities.

         Regarding the third recommendation, HRSA pointed out several ongoing activities to
         promote ADAP participation in the 340B direct purchase option, including the
         implementation of the Prime Vendor Program. We commend their efforts in this area.
         The HRSA cautioned, however, that one potential solution offered, that of transforming
         reimbursement systems into direct purchase systems via mail order pharmacies was not
         necessarily the perfect solution for every State ADAP. They pointed out that States often
         face unique concerns and constraints that would make a mail order system unworkable.
         We agree with HRSA’s assessment.

         One technical concern HRSA expressed was with our calculation of the percentage of
         Federal funding for ADAPs. We report that Federal funding comprised 80 percent of total
         ADAP funding. This figure is based on data HRSA supplied to us from the ADAP
         portion of the FY 1999 Title II Grant Applications. The HRSA used data from the same
         source to arrive at a 74 percent Federal share. The HRSA percentage is calculated using a
         denominator they have titled ‘Total ADAP Resources’ which not only includes Federal,
         State and other funding, but a category of cost-savings strategies. Our denominator
         excludes the category ‘cost-savings strategies’ since it is our understanding that these are
         ADAP resources, but they do not constitute an ADAP funding source.


ADAP Cost Containment Strategies                         29                             OEI-05-99-00610
         The concern raised by ASPE staff has to do with the larger policy implications of our first
         recommendation. In particular, they are concerned that allowing 340B entities to utilize
         the Section 603 Federal ceiling price might affect the ability of the VA and the Big 4 to
         maintain the low prices they currently obtain. We understand their concern about the
         negotiations. In fact, it was our concern with this very issue that lead us to recommend
         that 340B pricing be linked to the statutorily defined Federal ceiling price as opposed to
         the negotiated Federal Supply Schedule (FSS) contract prices the VA and the Big 4
         actually pay for drugs. The Federal ceiling price acts only as an upper ceiling to the FSS
         prices. In reality, the VA uses its considerable volume to negotiate prices below the
         Federal ceiling. Allowing 340B entities to utilize the same ceiling calculation as the VA
         and the Big 4 merely provides them with an equitable starting point. Discussions with the
         VA confirmed that this is a realistic recommendation in consideration of larger policy
         implications.




ADAP Cost Containment Strategies                         30                             OEI-05-99-00610
                                                                                   APPENDIX A

     Projected Savings if ADAPs Purchased Drugs at Federal Ceiling Prices
                             By State for CY 1999

  States                           Federal Savings         State/Other Savings Total Savings

  Direct Purchase States
  TEXAS                                    $3,188,827.19             $227,411.05     $3,416,238.24
  LOUISIANA                                $2,121,753.07                   $0.00     $2,121,753.07
  PUERTO RICO                              $2,110,284.76             $445,620.56     $2,555,905.32
  COLORADO                                 $1,153,847.63             $298,881.17     $1,452,728.81
  ILLINOIS                                   $837,363.66             $410,718.12     $1,248,081.79
  VIRGINIA                                   $833,214.59              $78,838.64       $912,053.23
  GEORGIA                                    $825,576.97             $151,860.11       $977,437.08
  SOUTH CAROLINA                             $692,909.46              $63,876.75       $756,786.21
  ALABAMA                                    $514,536.07              $13,944.96       $528,481.03
  KENTUCKY                                   $488,075.56              $19,486.20       $507,561.76
  NEVADA                                     $487,965.83             $190,141.56       $678,107.38
  ARIZONA                                    $384,879.54              $94,855.93       $479,735.47
  MISSISSIPPI                                $234,993.81              $41,703.30       $276,697.11
  NEW MEXICO                                 $130,204.14             $141,954.05       $272,158.19
  TENNESSEE                                  $124,160.02                   $0.00       $124,160.02
  HAWAII                                     $109,362.24              $25,360.28       $134,722.51
  IOWA                                        $99,532.64                   $0.00        $99,532.64
  NEBRASKA                                    $68,254.93                   $0.00        $68,254.93
  FLORIDA                                     $40,509.68               $6,055.50        $46,565.18
  MONTANA                                     $38,113.22                   $0.00        $38,113.22
  DELAWARE*                                   $23,018.90                   $0.00        $23,018.90
  DC**                                       -$41,153.55              -$3,711.95       -$44,865.50
  Subtotal                                $14,466,230.36           $2,206,996.22    $16,673,226.58

  340B Rebate States
  NEW YORK                                $13,694,595.49           $1,009,649.49    $14,704,244.98
  CALIFORNIA                               $9,544,078.82           $5,797,408.79    $15,341,487.62
  NEW JERSEY                               $6,121,303.64             $896,065.96     $7,017,369.60
  MARYLAND                                 $1,552,366.18              $64,337.19     $1,616,703.37
  WASHINGTON                               $1,301,611.64             $530,284.75     $1,831,896.38
  MASSACHUSETTS                            $1,084,651.14             $257,847.26     $1,342,498.40
  CONNECTICUT                                $962,850.38              $72,194.68     $1,035,045.06
  MISSOURI                                   $877,743.98             $376,592.56     $1,254,336.54
  OHIO                                       $869,197.74             $514,594.06     $1,383,791.80
  INDIANA                                    $620,301.59                   $0.00       $620,301.59

ADAP Cost Containment Strategies                             31                         OEI-05-99-00610
  WISCONSIN                                     $591,099.36                     $147,178.48              $738,277.85
  NORTH CAROLINA                                $559,687.70                     $770,377.28            $1,330,064.98
  OKLAHOMA                                      $286,704.96                     $110,595.67              $397,300.63
  KANSAS                                        $252,476.92                           $0.00              $252,476.92
  UTAH                                          $243,022.91                      $24,545.63              $267,568.54
  RHODE ISLAND                                  $228,868.96                           $0.00              $228,868.96
  OREGON                                        $210,505.73                           $0.00              $210,505.73
  WEST VIRGINIA                                 $163,381.51                      $12,491.40              $175,872.91
  IDAHO                                          $75,164.09                      $34,023.68              $109,187.77
  VERMONT                                        $40,994.05                      $33,059.72               $74,053.77
  NORTH DAKOTA                                   $34,450.13                           $0.00               $34,450.13
  ALASKA                                         $21,886.31                       $1,622.06               $23,508.38
  Subtotal                                   $39,336,943.24                  $10,652,868.67           $49,989,811.91

  Non-Participating
  States ***
  PENNSYLVANIA                                $1,945,523.68                   $1,291,223.10            $3,236,746.78
  MICHIGAN                                      $657,021.25                           $0.00              $657,021.25
  MINNESOTA                                     $586,286.47                      $29,309.66              $615,596.14
  ARKANSAS                                      $515,510.43                           $0.00              $515,510.43
  SOUTH DAKOTA                                   $47,138.80                           $0.00               $47,138.80
  Subtotal                                    $3,751,480.63                   $1,320,532.76            $5,072,013.39

  Total Savings****                          $57,554,654.23                  $14,180,397.65           $71,735,051.88

Notes: 	 *Delaware is registered as a rebate State with HRSA, but the bulk of its purchases are made through a
         Disproportionate Share Hospital which purchases the drugs directly at the 340B ceiling price. For the
         purposes of this analysis, it was counted as a direct purchase State.

         **The District of Columbia’s negative savings reflects the fact that they procure their drugs through the
         Department of Defense at Big 4 contract prices. Big 4 contract prices are often lower than Federal ceiling
         prices given the tremendous bargaining power of the Big 4. Washington DC was included in the direct
         purchase category because this category most closely resembles how DC obtains drugs and the prices they
         pay.

         ***Non-participating ADAPs often negotiate their own rebates from pharmaceutical manufacturers.
         Michigan and Minnesota receive voluntary rebates from pharmaceutical manufacturers. Pennsylvania
         receives State mandated rebates from pharmaceutical manufacturers. These rebates have been calculated
         into our savings estimates. Arkansas became a direct purchase State in September 1999, at the end of our
         sampled time.

         **** New Hampshire, Wyoming and Maine were unable to provide us with the information we requested. The
         Virgin Islands only became eligible for the 340B Drug Pricing Program in October 1999. We believe that
         the total savings would be even greater had pricing information from these ADAPs been included.




ADAP Cost Containment Strategies                                    32                                     OEI-05-99-00610
                                                                                        APPENDIX B


           Names and National Drug Codes of the 10 Drugs Reviewed



                  Pharmaceutical
                                                                        National Drug Code
             Brand Name (Generic Name)
                 Crixivan (Indinavir)                                      00006057362
                  400 mg, 180 units
                Invirase (Saquinavir)                                       00004024515
                  200mg, 270 units
                  Sustiva(Efavirenz)                                       00056047492
                    200mg, 90 units
                 Viracept (Nelfinavir)                                     63010001027
                  250mg, 270 units
                  Zidovudine (AZT)
                                                                           00173010855
                   100mg, 100 unit
                      Epivir (3TC)
                                                                           00173047001
                     150mg, 60 units
                      Videx (ddl)                                          00087665201
                     100mg, 60 units
                       D4T (Zerit)
                                                                           00003196701
                      40mg, 60 units
                 Combivir (AZT/3TC)                                         00173059500
                150mg/300mg, 60 units
               Fortovase (Saquinavir)                                      00004024648
                 200mg, 180 units

Note: 	 The original survey requested information on 11 drugs. The 10 drugs listed here and Norvir
        (NDC#00074663322). The National Drug Code for Norvir used on our survey was not issued until June
        1999. It was often not clear in the data received which NDC of Norvir the information corresponded to,
        therefore we did not use any of the data related to this pharmaceutical.




ADAP Cost Containment Strategies                              33                                  OEI-05-99-00610
                                                      APPENDIX C


                                   Agency Comments





ADAP Cost Containment Strategies              34          OEI-05-99-00610
                                                                              APPENDIX C
                               Agency Comments
           Health Resources and Services Administration (HRSA) Comments to the Office
                 of Inspector General (OIG) Draft Report “AIDS Drug Assistance
                     Program Cost Containment Strategies” OEI-O5-99-00610


GENERAL COMMENTS

The draft report is informative and supportive of AIDS Drug Assistance Programs (ADAPs).
However, to be accurate the Health Resources and Services Administration (HRSA) recommends
that the report include the information that State ADAPs operate in dynamic environments and
that the description of each program is a snapshot taken at a fixed point in time. For example, the
study period for this report included only the first three quarters of 1999. Therefore, to describe
ADAPs as they existed during the study period, we recommend that 010 change the word
“currently” to “at the time this study was conducted,” everywhere the word “currently” appears in
the report.

OIG RECOMMENDATION

The Health Resources Services Administration should seek legislation to change the 340B ceiling
price calculation to the Big 4 ceiling price calculation.

HRSA COMMENT

We concur. We will actively review the need for such a legislative change and make an
appropriate recommendation to the Department. Implementation of the 340B Drug Pricing
Program has been tied to the Medicaid program for calculation of the ceiling price. Medicaid is a
reimbursement program and changes to the data utilized to calculate the Medicaid Unit
Reimbursement (URA) are allowed to occur retroactively. The 340B price is an immediate, up-
front, at the time of purchase selling price and these changes are often not captured or included in
the calculation. Adjustments are difficult to identify and implement. The “Big 4” Section 603 price
schedule administered by the Veterans Administration (V.A.) is similar to the 340B drug pricing
program in being an up-front, at the time of purchase discount program. Changes as they occur
are tracked by the V.A. and this can be easily communicated to HRSA for the 340B program. The
Federal dollars, provided to the 340B covered entities through grant funding, may be further
stretched to serve additional patients and provide additional services with this change in the
legislation. The impact of this legislative change is not limited to the ADAPs, but would extend to
all 340B covered entities. The impact is potentially larger and may have a significant impact on
providing access to both health care services and pharmaceuticals to individuals with current
unmet needs.



ADAP Cost Containment Strategies                       35                              OEI-05-99-00610
                                                                               APPENDIX C


                                      Agency Comments

OIG RECOMMENDATION

To allow ADAPs to negotiate the lowest prices possible, HRSA should seek to statutorily exempt
all sales to 340B covered entities from the calculation of Non-Federal Average Manufacturers
Price (nonFAMP).

HRSA COMMENT

We concur. The inclusion of sales to 340B covered entities below the current 340B statutory
ceiling price into the nonFAMP may cause manufacturers to avoid negotiations that would
provide further discounts to the 340B covered entities.

OIG RECOMMENDATION

HRSA should continue to work with rebate and non-participating ADAPs to devise ways to grant
them access to up-front drug discounts. 1) HRSA should continue to provide incentives and
technical assistance for States to join the direct pricing/Prime Vendor option, and 2) HRSA
should revisit the potential of allowing multiple contract pharmacies.

HRSA COMMENT

We concur.

1.	       HRSA has in the past and continues in the present to encourage the ADAPs to participate
          in the 340B direct purchase option. The implementation of the HRSA Prime Vendor is
          anticipated to provide additional savings to those ADAPs participating in both the direct
          discount option and the Prime Vendor as compared to the rebate and non-participating
          ADAPs. The potential additional savings possible if the ceiling price is changed to the
          “Big 4” Section 603 ceiling price would be an additional inducement for the ADAP rebate
          option States to implement a direct discount option system.

          HRSA has provided and will continue to provide incentives and technical assistance for
          State ADAPs to participate in the Section 340B direct purchase discount program.
          However, when advising State ADAPs about the Section 340B point of purchase
          discount, HRSA advises State ADAPs to consider the cost-effectiveness of the entire drug
          purchasing, dispensing, and administrative system used by the ADAP.




ADAP Cost Containment Strategies                        36                             OEI-05-99-00610
                                                                               APPENDIX C

                                     Agency Comments
2.	      A “Mail Order” Pharmacy has been an option for the ADAPs since the establishment of
         the 340B Contract Pharmacy Service Provider guidelines. HRSA will continue to explore
         options that may facilitate ADAPs in utilizing either a Mail Order Pharmacy or multiple
         contract pharmacy service providers.

         The report suggests that one way to easily transform a reimbursement system into a
         system with a single central purchase, without sacrificing wide distribution, would be to
         engage mail-order pharmacy service. It is important to note that a system that works well
         for one State ADAP may not be suitable for another State to incorporate.

         A mail-order pharmacy may not necessarily be a perfect solution for every State ADAP
         for the following reasons:

         1) A number of ADAPs provide treatments for acute opportunistic infections and pain
         medication that require immediate and convenient client access.

         2) Many of the reimbursement State ADAPs utilize the same structure as other
         governmental programs providing access to medications within the State (i.e., Medicaid)
         and often both Medicaid and ADAP utilize the same local pharmacy network.

         3) Clients often move back and forth between Medicaid and ADAP. It is essential that
         these two programs coordinate and function well together.

         4) ADAP clients living in public housing projects and high crime inner-city neighborhoods,
         as well as homeless or those living in temporary housing, would also prove difficult to
         serve through a mail-order system due to potential shipping loss and theft.

  These potential problems would also impact client adherence, another major concern that could
  impact a client’s overall health, as well as result in additional health care costs (e.g., viral
  resistance, risk from opportunistic infections, increased emergency room utilization, increased
  hospitalization, and increased mortality).

TECHNICAL COMMENTS

Page 8: Under “ADAPs Participation in the 340B Drug Pricing Program,” please insert a new
second sentence that says: “State ADAPs operate in dynamic environments, so the description of
each program that follows is a snapshot taken at a fixed point in time.”



ADAP Cost Containment Strategies                        37                             OEI-05-99-00610
                                                                                 APPENDIX C

                                      Agency Comments
Under the heading, “ADAPs Participation in the 340B Drug Pricing Program,” line 5, that reads
“Currently, twenty-three ADAPs participate in the 340B,” add “under the direct discount
program” and change twenty-three to twenty-two.

Line 7 states “Twenty-two ADAPs receive standardized rebates,” add “under the 340B rebate
option” and change twenty-two to twenty-four.

Page 12: In the second paragraph under “Scope and Methodology”, the report describes funding
sources to ADAPs and states that Federal funding typically comprises 80 percent of total ADAP
funding. While that may be correct for the States responding to the survey, please add a new
sentence at the end of the paragraph: “Overall, though, as reported in the FY 1999 Title II grant
applications, State ADAPs estimated 74 percent of funds was from Federal sources, (specifically
64 percent was received from the Federal ADAP earmark, 7 percent from Title II base
contribution, 3 percent from Title I contributions, 18 percent from State contributions, 1 percent
from other contributions, and 7 percent from other cost-saving strategies).”

Page 17: Under the heading, “ADAPs could have served thousands more people living with
HIV/AIDS,” paragraph 4. change the 3rd sentence to read, “The National Institutes of
Health/PHS Guidelines for the Use of Antiretroviral Agents in HIV Infected Adults and
Adolescents calls for the use of combination Antiretroviral therapy comprised of at least three
drugs.” Delete sentence 4 because the guidelines no longer encourage starting persons infected
with HIV on aggressive drug therapy earlier in the development of the disease.

Page 25: Delete paragraph 4 that starts with the sentence, “The ADAPs concerned about the
drawbacks of a mail-order system could create a mixed system.” This recommendation would
require States to develop parallel systems that would be administratively burdensome and not
necessarily cost effective.

Appendix A: Include Arkansas and the Virgin Islands in the first chart that lists States that
participate in the 340B direct purchase option. Delete Delaware and D.C. as using this option.
Delaware participates in the rebate option and D.C. purchases medications under the Federal
Supply Schedule.

Include Delaware and Wyoming in the second chart that lists the States that participate in the
340B rebate option.

Include the following information in the 3rd chart that lists the States that do not participate in the
340B purchasing option: Michigan and Minnesota receive voluntary rebates from pharmaceutical
manufacturers and Pennsylvania receives State mandated rebates from pharmaceutical
manufacturers.

ADAP Cost Containment Strategies                         38                               OEI-05-99-00610
                                                                            APPENDIX D


                            Related Office of Inspector General Reports


The Ryan White Evaluation Systems: AIDS Drug Assistance Programs (OEI-05-98-00390)

The Ryan White Evaluation Systems: Title II Grants to the States (OEI-05-98-00393)

Audit of the Utilization of the Public Health Service 340B Drug Pricing Program
 (A-01-98-01500)

Audit of State AIDS Drug Assistance Programs’ Use of Drug Price Discounts (A-01-97-01501)

Comparing Drug Reimbursement: Medicare and Department of Veterans Affairs
  (OEI-03-97-00293)




ADAP Cost Containment Strategies                     39                           OEI-05-99-00610
